FILED
JAN - 5 2021

WA0WEG8
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Michael Edwards

20-878
v Indiana University

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
S Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents):

Q I am a member of the Bar of the Supreme Court of the United States.
a I am not presently a meml
will be filed by a Bar men

theRar of this Court. Should a response be requested, the response

Signature
Date:

JANUARY 5,2021

(Type or print) Name

RECEIVED

JAMES R. A. DAWON
B Mr-

□ Ms.

□ Mrs.

Q Miss

JAN - 8 2021

TAFT STETTINIUS & HOLLISTER LLP
Firm
Address

ONE INDIANA SQUARE, SUITE 3500

City & State.
Phone

INDIANAPOLIS, IN

317-713-3500

Zip

46204

Email jdawson@tafHaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENTS) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Michael Edwards

One Indiana Square, Suite 3500
Indianapolis, IN 46204-4609
Tel: 317.713.3500 | Fax: 317.713.3699
taftlaw.com

Taft/
JAMES R. A. DAWSON
DIRECT DIAL: 317.713.
EMAIL: JbAWSON@TAFTLAW.COM

January 5, 2021
Via FedEx Overnight Delivery
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Michael Edwards v. Indiana University
Supreme Court Case No.: 20-878
Waiver

Dear Clerk:
Enclosed please find the original and ten (10) copies of the Respondents’ Waiver
for filing in the above referenced case.
Please return a file-stamped copy in the envelope provided.
Sincerely yours

/s/James R.JA. Dawson
JRD:ao
Enclosures
cc (w/enclosure):
Michael Edwards
1516 W. Edinburgh Bend
Bloomington, IN 47403

RECEIVED
JAN - 8 2021

28542547V1

Taft Stettinius & Hollister LLP
Chicago / Cincinnati / Cleveland / Columbus / Dayton / Delaware / Denver / Indianapolis / Minneapolis / Northern Kentucky / Phoenix;

